         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report



       EPA’s Contracts and Grants
       Workforce May Face Future
       Workload Issues
       Report No. 11-R-0005

       October 25, 2010
Report Contributors:                           Janet Kasper
                                               Michael Petscavage
                                               Matthew Simber
                                               Shannon Schofield
                                               Wendy Swan
                                               Richard Valliere
                                               Nancy Dao




Abbreviations

EPA          U.S. Environmental Protection Agency
FMFIA        Federal Managers’ Financial Integrity Act
FTE          Full-Time Equivalent
FY           Fiscal Year
OAM          Office of Acquisition Management
OCFO         Office of the Chief Financial Officer
OGD          Office of Grants and Debarment
OIG          Office of Inspector General
OMB          Office of Management and Budget
RATB         Recovery Accountability and Transparency Board


Cover photo: Recovery Act sign in Massachusetts. (EPA OIG photo)
                       U.S. Environmental Protection Agency                                                 11-R-0005
                                                                                                      October 25, 2010
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review            EPA’s Contracts and Grants Workforce
                                  May Face Future Workload Issues
We conducted this audit to
determine whether the U.S.         What We Found
Environmental Protection
Agency (EPA) has sufficient       EPA should ensure that it has sufficient contracts and grants staff to perform both
qualified contracts and grants    the Recovery Act and non-Recovery Act activities. EPA emphasized Recovery
staff to handle American          Act activities, resulting in non-Recovery Act activities being delayed or not
Recovery and Reinvestment         completed. The Office of Management and Budget’s Recovery Act
Act of 2009 work and              implementation guidance states that each agency is responsible for initiating risk
non-Recovery Act work.            mitigation actions, including evaluating workforce needs. The management and
                                  oversight resource allocations of the Office of Acquisition Management (OAM)
Background                        and the Office of Grants and Debarment (OGD) were not always based on
                                  workforce analyses of the actual resources needed to accomplish Recovery Act
EPA received $7.2 billion         activities. Factors such as the funding limitations set forth in the Recovery Act
from the Recovery Act. The        heavily influenced how Recovery Act management and oversight funds were
Recovery Act also established     distributed. As a result, non-Recovery Act resources were devoted to Recovery
the Recovery Accountability       Act activities, leaving less time for staff to focus on non-Recovery Act
and Transparency Board.           administration, monitoring, and oversight.
Among its responsibilities, the
board determines whether          Unlike OGD, OAM does not have Agency-wide performance measures, thereby
there are sufficient qualified    making it difficult to assess the impact of the Recovery Act on its staff and
contract and grant personnel      workload. The Government Performance and Results Act of 1993 requires the
overseeing funds. EPA             Federal Government to establish performance measures. In response to a prior
retained $81.5 million of         Office of Inspector General audit recommendation, OAM developed performance
Recovery Act funds for            measures for employee job standards that tied in to its strategic goals. However, it
management and oversight.         did not develop Agency-wide performance measures for contract functions.
                                  Without Agency-wide performance measures, OAM does not have valuable
                                  information it could use to effectively and efficiently manage its workforce and
                                  workload, and quickly address emerging issues such as impacts from Recovery
                                  Act work.

For further information,
                                   What We Recommend
contact our Office of
Congressional, Public Affairs     We recommend that the Assistant Administrator for Administration and Resources
and Management at                 Management direct OAM and OGD to review the September 30, 2010, metrics and
(202) 566-2391.                   prepare action plans for any measure that did not meet its goal in 2010. At the exit
To view the full report,
                                  conference, EPA stated that if we allowed flexibility for the Agency to determine
click on the following link:      what delays would reveal a control weakness, it would agree with the
www.epa.gov/oig/reports/2011/     recommendation. EPA stated that it agreed with the recommendation as it was
20101025-11-R-0005.pdf            revised in the final report. We also recommend that OAM develop and implement
                                  organization-wide performance measures to better manage its activities. OAM
                                  agreed to implement this recommendation.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                         October 25, 2010

MEMORANDUM

SUBJECT:               EPA’s Contracts and Grants Workforce May Face
                       Future Workload Issues
                       Report No. 11-R-0005


FROM:                  Arthur A. Elkins, Jr. Mark Bialek for
                       Inspector General

TO:                    Craig E. Hooks
                       Assistant Administrator for Administration and Resources Management


This is the Office of Inspector General’s (OIG) report on the U.S. Environmental Protection
Agency’s (EPA’s) contracts and grants workforce. This report contains findings that describe
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the position of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in the report will be made by EPA managers.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $393,447.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public Website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objection to the further release of this report to the
public. This report will be available at http://www.epa.gov/oig.
If you or your staff have any questions, please contact Melissa Heist, Assistant Inspector General
for Audit, at 202-566-0899 or heist.melissa@epa.gov; or Janet Kasper, Product Line Director, at
312-886-3059 or kasper.janet@epa.gov.
EPA’s Contracts and Grants Workforce                                                                                      11-R-0005
May Face Future Workload Issues



                                  Table of Contents

Chapters
   1    Introduction ........................................................................................................      1

                Purpose .......................................................................................................    1
                Background .................................................................................................       1
                Noteworthy Achievements...........................................................................                 2
                Scope and Methodology..............................................................................                2

   2    Potential Future Workload Issues ....................................................................                      5

                OMB Implementation Guidance Requires Sufficient Qualified Staff............                                       5
                Guidance Identifies Assessing Workforce Needs and Skill Gaps ...............                                      6
                Indicators of Future Workload Problems .....................................................                      6
                Performance Measurement Information Indicates Potential Staffing
                      Shortfalls for Grants............................................................................           10
                OAM Did Not Use Workforce Analysis to Establish Staffing Levels ............                                      11
                Grant Resource Allocation Not Based on Workload Study .........................                                   12
                Potential Diminished Efforts in Monitoring and Oversight Reviews.............                                     12
                Recommendation ........................................................................................           13
                Agency Comments and OIG Evaluation......................................................                          13

   3    OAM Needs Agency-Wide Performance Measures.........................................                                       15

                Performance Measurement Is Required by Law .........................................                              15
                OAM Does Not Have Performance Measures.............................................                               15
                Past Implementation of Performance Measures Not Effective ....................                                    16
                Recommendation ........................................................................................           16
                Agency Comments and OIG Evaluation......................................................                          17

   Status of Recommendations and Potential Monetary Benefits..............................                                        18



Appendices
   A    Agency Response to Draft Report....................................................................                       19

   B    Distribution .........................................................................................................    24
                                                                                             11-R-0005




                                              Chapter 1
                                              Introduction
Purpose
                    The U.S. Environmental Protection Agency (EPA) Office of Inspector General
                    (OIG) conducted this audit to determine whether EPA has sufficient qualified
                    staff to administer its contracts and grants 1 for both American Recovery and
                    Reinvestment Act of 2009 (Recovery Act) (Pub. L. 111-5) and non-Recovery Act
                    activities. We performed this audit in conjunction with the Recovery
                    Accountability and Transparency Board’s (RATB’s) survey request for Agency
                    workforce information.

Background
                    EPA received $7.2 billion from the Recovery Act. EPA distributed Recovery Act
                    funds through the Clean Water State Revolving Fund, Drinking Water State
                    Revolving Fund, Brownfields, Leaking Underground Storage Tanks, Diesel
                    Emission Reductions, and Superfund Remedial programs. The Recovery Act
                    provided EPA 1 to 4 percent of appropriated funds for program management and
                    oversight purposes. EPA retained $81.5 million for Recovery Act management
                    and oversight, which can be used for payroll, travel, awards, overtime, and
                    compensatory time through Fiscal Year (FY) 2011.

                    Section 1521 of the Recovery Act established the RATB to coordinate and
                    conduct oversight of covered funds to prevent fraud, waste, and abuse. Section
                    1523 of the Recovery Act directs the RATB to determine whether there are
                    sufficient qualified contract and grant personnel overseeing funds. At the
                    RATB’s request, OIGs from a number of agencies distributed surveys to their
                    respective agencies to obtain information on current and projected staffing levels
                    and qualifications of staff supporting Recovery Act activities.

                    On behalf of the RATB, the U.S. Department of Commerce OIG presented the
                    findings from the OIG surveys in its report, Review of Contracts and Grants
                    Workforce Staffing and Qualifications in Agencies Overseeing Recovery Act
                    Funds, issued in March 2010. The report states that the additional workload from
                    the Recovery Act has put a strain on a significant portion of the contracts and
                    grants workforce. It also reported on the impact of the additional workload from
                    the Recovery Act on both Recovery Act and non-Recovery Act work, which
                    included (1) award delays, (2) decreased postaward monitoring, (3) increased staff
                    hours, and (4) increased use of supplemental staff. To ensure timely completion

1
    The term “grant” also refers to cooperative agreements and interagency agreements.


                                                          1
                                                                                    11-R-0005


         of the Recovery Act activities, the report found that agencies gave priority to their
         Recovery Act workload and devoted more full-time equivalents (FTEs) to
         Recovery Act contracts and grants. EPA’s response to the RATB survey is
         discussed on page 7.

Noteworthy Achievements
         In signing the Recovery Act, the President expected agencies to make additional
         contract and grant awards as quickly as possible while adhering to regulations and
         procedures that would ensure a fair and competitive process. EPA assigned
         resources to emphasize Recovery Act actions. Specifically:

               The Agency shifted experienced grant administration staff to handle the
                Recovery Act workload. Contract administration staff had other work
                priorities adjusted so that they were dedicated to Recovery Act work.

               The Office of Grants and Debarment (OGD) assumed the responsibility
                from the regions for its advanced monitoring program for grant recipients
                for FY 2009. This allowed the regions to focus on the priority of
                awarding Recovery Act funds.

         The additional emphasis on Recovery Act activities resulted in EPA awarding
         grants quickly, which was one of the goals of the Recovery Act. The President
         signed the Recovery Act in February 2009 and, by September 30, 2009, EPA had
         awarded $6,483,386,620 in grants and $302,428,540 in contracts.

         To ensure effective internal controls, EPA developed a stewardship plan that sets
         out the Agency’s Recovery Act risk assessment, internal controls, and monitoring
         activities for Recovery Act funds. The EPA stewardship plan incorporates U.S.
         Government Accountability Office Internal Control Standards: control
         environment, risk assessment, control activities, information and communication,
         and monitoring. EPA monitors the risk assessment, mitigation, and oversight for
         its stewardship plan and prepares a quarterly report identifying any issues that
         arise from these monitoring reviews.

Scope and Methodology

         We conducted this audit from July 2009 to May 2010 in accordance with
         generally accepted government auditing standards issued by the Comptroller
         General of the United States. Those standards require that we plan and perform
         the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
         for our findings and conclusions based on our audit objective. After reviewing
         the results from preliminary research, we limited our audit to the Agency’s
         contracts and grants workforce, and did not include the program office support
         for contract and grant functions. We believe the evidence obtained provides a
         reasonable basis for our findings and conclusions based on our audit objective.


                                           2
                                                                         11-R-0005


Our audit included interviewing Agency managers responsible for preparing the
proposals on resources needed for Recovery Act activities for the Office of
Acquisition Management (OAM), OGD, Office of the Chief Financial Officer
(OCFO), and the various program offices receiving Recovery Act funds: Office
of Solid Waste and Emergency Response (Superfund, Brownfields, and Leaking
Underground Storage Tanks); Office of Air and Radiation (Diesel Emissions
Reduction); and Office of Water (Clean Water and Drinking Water State
Revolving Funds). We interviewed OAM and OGD managers regarding their
efforts to determine the FTEs needed to manage grants and contracts and any
studies that they had performed.

We reviewed Agency performance measurement data and reports and the
Agency’s response to the RATB survey. We also reviewed documentation and
spoke with budget managers to obtain support for the decisions made in
distributing management and oversight funds. Based on this information, we
selected six regional offices with which to further discuss the impact the Recovery
Act is having on their respective contract and grant workloads. Specifically, we
spoke with management, contracting officers, and grant specialists in Regions 1,
3, 4, 5, 8, and 9. We selected these regions based on a risk assessment formulated
from information gathered during preliminary research, which included RATB
survey results and interviews with various EPA managers.

Prior Audit Coverage

We reviewed prior OIG reports for recommendations related to our audit
objective. We made similar recommendations in Report No. 2005-P-00006,
Office of Acquisition Management Can Strengthen Its Organizational Systems,
issued February 17, 2005. The report recommended that the OAM Director
develop an action plan with milestone dates to:

      Establish measures for, and a means of measuring progress against, OAM
       strategic goals.
      Complete its workload analysis and perform a workforce analysis.
      Capture data needed to measure, analyze, and improve short- and long-
       term program performance in achieving its vision and goals, including:
            cost and quality of its contract services
            the extent to which OAM contracting offices are the preferred
               business partner for EPA offices
            environmental and other benefits received from EPA contracts.

Per the Management Audit Tracking System, all the recommendations have been
completed and closed out. However, there continue to be weaknesses in the
performance measurement system as discussed in Chapter 3.




                                 3
                                                                           11-R-0005




Internal Control Structure

In planning and performing our audit, we reviewed management controls related
to our objective. Specifically, the Office of Management and Budget’s (OMB’s)
Recovery Act implementation guidance (M-09-10 and M-09-15) instructed
agencies to develop an overall agency plan for the Recovery Act. Such plans
should describe processes in place for senior managers to regularly review the
progress and performance of major programs, including identifying areas of risk.
The OMB guidance instructed EPA to prepare individual program plans that were
to address, among other things, barriers to effective implementation such as
personnel skill gaps. EPA finalized its plans on May 15, 2009, and updated its
plans June 1, 2010. We reviewed these plans to identify actions the Agency
planned to take regarding staffing.

We reviewed the Agency’s Recovery Act Stewardship Plan as it related to our
audit objective. In its stewardship plan, the Agency identified additional steps
and procedures it would follow to mitigate the risks identified for each of the
programs receiving Recovery Act funds.

We reviewed documents EPA completed in compliance with the Federal
Managers’ Financial Integrity Act (FMFIA) for weaknesses related to staffing or
workforce needs. We reviewed each of the region’s FY 2009 FMFIA assurance
letters and the letters for the Office of Water, Office of Air and Radiation, Office
of Administration and Resources Management, Office of Solid Waste and
Emergency Response, and OCFO.




                                  4
                                                                                                       11-R-0005




                                             Chapter 2
                        Potential Future Workload Issues
                   EPA should ensure that it has sufficient contracts and grants staff to perform both
                   Recovery Act and non-Recovery Act activities. EPA emphasized Recovery Act
                   activities, resulting in non-Recovery Act activities being delayed or not
                   completed. OMB’s Recovery Act implementation guidance states that each
                   agency is responsible for initiating risk mitigation actions, which include
                   evaluating workforce needs. OAM and OGD management and oversight resource
                   allocations were not always based on workforce analyses of the actual resources
                   needed to accomplish the Recovery Act. Factors such as the funding limitations
                   set forth in the Recovery Act heavily influenced how Recovery Act management
                   and oversight funds were distributed. As a result, EPA’s current contract and
                   grant staffing levels may not be sufficient to meet current and future non-
                   Recovery Act contract and grant workload demands.

OMB Implementation Guidance Requires Sufficient Qualified Staff
                   OMB’s Recovery Act implementation guidance discusses the Agency’s
                   responsibilities for initiating risk mitigation actions. 2 These include:

                           Evaluating workforce needs to appoint qualified contracting officers,
                            contracting officer technical representatives, and program managers with
                            certification levels appropriate to the complexity of Recovery Act projects.

                           Paying special attention to ensuring that sufficient qualified acquisition
                            personnel are available to perform contract administration and mitigate the
                            government’s risk when using other than firm-fixed-price contracts.
                            According to EPA’s Contract Management Manual, firm-fixed-price
                            contracts place maximum risk and full responsibility for all costs on
                            contractors. Cost-reimbursement contracts place the risk on the
                            government and require extensive oversight.

                           Identifying mission-critical human capital needs for Recovery Act
                            implementation and assessing the gap between the current workforce and
                            Recovery Act human capital requirements.

                   The OMB guidance states that agencies were to take certain actions, beyond
                   standard practice, when planning to award contracts and grants. The guidance
                   states that because of the critical importance of the Recovery Act, heightened
                   attention to acquisition planning is needed to ensure, among other things, that the

2
    OMB issued the original guidance on February 19, 2009 (M-09-10), and updated it on April 3, 2009 (M-09-15).


                                                         5
                                                                                                            11-R-0005


                  Agency uses a sufficient, adequately trained workforce to award and monitor
                  contracts. In planning for Recovery Act grants, the guidance states that the
                  Agency should work with managers and staff at all levels to secure the resources
                  needed to implement the Recovery Act.

Guidance Identifies Assessing Workforce Needs and Skill Gaps
                  In September 2005, the Office of Personnel Management developed a workforce
                  planning model that included a five-step process3 for identifying and addressing
                  the skill gaps of today and the human capital needs of tomorrow. According to
                  the model, effective workforce planning enables the organization to develop a
                  comprehensive picture of where gaps exist between current workforce
                  competencies and future competency requirements, identify and implement gap
                  reduction strategies, make decisions about how to best structure the organization
                  and deploy the workforce, and identify and overcome internal and external
                  barriers to accomplishing strategic workforce goals.

                  OMB memorandum, Acquisition Workforce Development Strategic Plan for
                  Civilian Agencies FY 2010-2014, dated October 27, 2009, provides a structured
                  approach to improve the capacity and capability of the acquisition workforce.
                  According to the memorandum, the demands on the critical federal acquisition
                  workforce have grown substantially, while growth in the workforce has not kept
                  pace. This increased workload leaves less time for effective planning and
                  contract administration, which can lead to diminished acquisition outcomes.
                  Advanced planning is necessary to develop clear requirements and performance
                  measures that are used in the preaward phase to determine competition and
                  negotiation strategies. Clear requirements and performance measures are also
                  needed in the postaward phase to manage the contract and make appropriate
                  award and incentive fee decisions.

Indicators of Future Workload Problems
                  The Agency has made the Recovery Act a top priority by shifting its existing
                  contract and grant administration staff to Recovery Act activities at the expense of
                  non-Recovery Act activities. In FY 2009, EPA awarded 576 Recovery Act grants
                  and issued 139 Recovery Act grant amendments, for a total of 715 actions. EPA
                  processed 162 Recovery Act contract actions, which included contract awards,
                  modifications, delivery orders, and task orders. To give some perspective, in
                  FY 2009, EPA processed a total of 8,130 contract actions and 10,014 grants
                  actions.

                  While Recovery Act actions represented only 2 percent of contract activity and
                  7 percent of grant activity, we identified indicators that EPA’s current contract
3
  The five steps of the workforce model are (1) set strategic direction; (2) analyze workforce, identify skill gaps, and
conduct workforce analysis; (3) develop action plan; (4) implement action plan; and (5) monitor, evaluate, and
revise.


                                                           6
                                                                        11-R-0005


and grant staffing levels may not be sufficient to meet current and future non-
Recovery Act contract and grant workload demands. Our conclusion is based on
statements from EPA managers and staff contained in EPA’s response to the
RATB survey, the FY 2009 FMFIA assurance letters, interviews, OAM’s
Acquisition Human Capital Plan, and performance measurement information.

Workload Issues Highlighted in Response to the RATB Survey

The RATB provided EPA a survey to benchmark the contract and grant
workforce communities. Each EPA program office, contract division, and region
responded to the survey by identifying the number of staff for each position and
the impact of the Recovery Act on their respective workloads. Overall, EPA
responded that it had sufficient resources to manage Recovery Act grants and
contracts. The individual survey responses provided examples of the impact
Recovery Act activities were having, or may have, on non-Recovery Act contract
and grant activities.

Contracts.  Seven regions and one contract division responded that Recovery Act
activities will have some impact on non-Recovery Act activities. For example,
Region 1 responded that its workload tripled from what it had projected, and there
was unanticipated workload for tracking, reporting, and stewardship. As a result,
work was being delayed, sent elsewhere, or not completed. Region 7 stated that
Recovery Act activities may potentially impact non-Recovery Act acquisitions
through potential delays in reviewing non-Recovery Act progress reports,
inability to review non-Recovery Act invoices for accuracy, and the potential
inability to quickly resolve non-Recovery Act issues.

Grants. Eight regions and one program office responded that Recovery Act
activities will have some impact on non-Recovery Act activities. For example,
Region 3 noted that there will be some delay in reviewing applications and
making awards, reduced baseline monitoring efforts, and reduced follow-up to
close out completed grants. Region 3 also stated that it would reduce the number
of meetings with the program offices. Region 10 indicated it was deferring or
cancelling postaward monitoring activities. The Region’s customer service level
had dropped because the processing time for non-Recovery Act awards has
increased. Region 10 also indicated that the additional workload may lead to
employee stress and errors.

EPA indicated concerns throughout the survey that the regions’ monitoring
activities performed for Recovery Act and non-Recovery Act contracts and grants
may be delayed. These monitoring activities were put into place to reduce risk to
the government and to ensure that the government is getting what it paid for. In
the cover letter for the RATB survey, dated September 4, 2009, EPA’s Senior
Accountable Official for the Recovery Act wrote:




                                 7
                                                                         11-R-0005


       The Survey results also show that in making Recovery Act
       implementation our top priority, we have had to disinvest in some
       of our non-Recovery Act grant and contract work. This includes,
       among other things, delays in non-Recovery Act awards and
       closeouts, less frequent post-award monitoring and extending
       milestones under our Grants Management Plan. The Agency will
       continue to carefully assess the level of disinvestment over the next
       two years to ensure it does not jeopardize our internal controls for
       effective grants and contracts management.

We asked OAM and OGD how they were continuing to assess the level of
disinvestment to ensure the disinvestment does not jeopardize internal controls for
effective management in the grants and contracts areas. According to OAM
managers, OAM divisions were not noticeably affected by the workloads created
by the Recovery Act. Regional contract officer supervisors identified some non-
Recovery Act disinvestments, but they were temporary and were discussed with
program offices well in advance. The OGD director stated that the office is
monitoring Recovery Act and non-Recovery Act activities and that while strategic
disinvestments were made, he did not believe the disinvestments were
jeopardizing EPA internal controls for grants management.

EPA Identified Staffing Levels as a Management Challenge or
Emerging Weakness

Some EPA regions identified staffing levels as a management challenge or
emerging weakness in regional FY 2009 FMFIA annual assurance letters.
Region 1’s assurance letter listed staffing as a management challenge and stated,
“Workload has increased at a higher pace than staffing and the current staffing
level continues to be inadequate to address the Region’s needs.” Region 7
identified staffing issues as a management challenge and as a new or emerging
issue. Region 7 indicated that the Recovery Act required higher levels of EPA
oversight, State reporting, and accountability than the grants funded by regular
appropriations. This higher level of grant oversight for Recovery Act grants will
be a strain on existing staffing resources, as these programs will also be managing
grants and programs funded by the annual appropriations. Region 9 stated that
the monitoring workload is expected to be much higher than normal due to the
additional requirements under the Recovery Act and extraordinary oversight.

Interviews with EPA Managers and Staff Indicated Staffing
Concerns Exist

Managers in the regional contracts and grants offices identified Recovery Act
impacts on non-Recovery Act activities.

Contracts. Region 1’s contract manager explained that the current contract
staffing level cannot perform both Recovery Act and non-Recovery Act activities.



                                 8
                                                                           11-R-0005


Further, after our discussions about the lack of staff, the manager of contracts and
procurement learned that an experienced contract officer was leaving the Agency.
In an e-mail dated January 8, 2010, the manager wrote, “Since another CO has
been unofficially detailed out of the office for other duties it is more than
impossible (is that possible?) for us to do our jobs. The hiring process is too long,
though we are requesting detail help from HQ or another region. We’ll see what
happens.”

The Region 5 contract manager indicated that the office was down many people
prior to the Recovery Act and that some work had been delayed. She stated that if
things are falling behind, it is because of the lack of staff and not the increased
work due to the Recovery Act. However, lack of staff still means that work is not
done, and if Recovery Act work is a priority, then non-Recovery work would be
the work that slips.

Grants. Region 3 managers indicated that baseline monitoring for non-Recovery
Act activities may slip as a result of the additional work created by the Recovery
Act. They also explained that their past practice of regularly meeting with the
program offices is not being maintained. Region 5 grant personnel indicated that
grant closeouts are being delayed.

Although the number of Recovery Act grant and contract actions has been small
(7 and 2 percent, respectively, of all actions taken in FY 2009), Recovery Act
activities have resulted in non-Recovery Act work being delayed or not
completed.

OAM’s Acquisition Human Capital Plan Identified Staff Shortfall

EPA submitted an Acquisition Human Capital Plan to the Office of Federal
Procurement Policy on April 1, 2010. Per Office of Federal Procurement Policy
instructions, EPA used a tool kit provided by the Federal Acquisition Institute to
project its workforce requirements. EPA projected that it needed 351 contracting
officers, contract specialists, and procurement analysts. OAM’s submission
identified its current workforce at 324 contracting officers, contract specialists,
and procurement analysts – a shortage of 27. Based on OAM’s projection for FY
2010, the acquisition staffing level is to remain the same, at about 324. The plan
did not include any specifics as to how OAM would address the shortfall in
staffing. The staffing shortfall is especially critical since OAM used existing
cost-reimbursement contracts for Recovery Act rather than the preferred fixed
price contracts. While using the existing cost-reimbursement contracts saved time
at the outset, they require extensive oversight, thereby creating an additional
burden to the existing staff and lessening the time available for non-Recovery Act
contract activities in the longer term.




                                  9
                                                                                              11-R-0005


Performance Measurement Information Indicates Potential Staffing
Shortfalls for Grants
          Performance measurement information, while limited, indicates that there may be
          difficulty managing the grant workload. The increase in Recovery Act activities
          has impacted non-Recovery Act work. The total percentage of grants closed out
          decreased from 95.5 percent in FY 2008 to 93.4 percent in FY 2009 (Table 2-1).

                 Table 2-1: Grants Closure Rates, FY 2008 and 2009
                                                   9/30/2008                          9/30/2009
                  Grants Ended in Period             3,511                              3,403
                  Total Grants Closed                3,352                              3,177
                  Percent Closed                      95.5                               93.4
                 Source: OGD FY 2008 and FY 2009 Fourth Quarter Performance Measure Reviews.

          Although the overall decrease in grants closed is not yet significant, it illustrates a
          possible trend that could continue at an increasing rate if not addressed. The total
          grants remaining to be closed increased approximately 35 percent, from 221 at the
          end of FY 2008 to 299 at the end of FY 2009 (Table 2-2). Nine regions showed
          increases in grants remaining to be closed.
           
                 Table 2-2: Grants Remaining to Be Closed, FY 2008 and 2009
                  Region     9/30/20081     9/30/20092      Difference   % Change
                    HQ            107            97             (10)          (9)
                     1              1            20               19        1900
                     2             13            15                2          15
                     3              4            13                9         225
                     4              6             9                3          50
                     5             21            57               36         171
                     6             12            25               13         108
                     7              0             0                0            0
                     8             27            30                3          11
                     9             29            28              (1)          (3)
                    10              1             5                4         400
                  Totals          221           299               78          35
                 Source: OGD FY 2008 and FY 2009 Fourth Quarter Performance Measure Reviews.
                         1
                             Includes all grants ending in FY 2002 through FY 2007.
                         2
                             Includes all grants ending in FY 2002 through FY 2008.

          The increase in the number of grants to be closed shown in the Table 2-2 was
          corroborated by interview and survey responses from Regions 1, 3, 5, 6, and 10.
          Regions 1 and 6 responded in their RATB survey that closeouts may be delayed,
          which is evident in the increase in total grants remaining to be closed. During our
          meetings with grant managers in Regions 3 and 5, they indicated that their non-
          Recovery Act work is slipping. Region 5 said resources were heavily invested in
          implementing the Recovery Act, thereby reducing the number of grant closeouts
          for FY 2009. Region 3 further indicated in its response to the RATB survey that
          follow-up on grants closeouts would be reduced. Region 10 responded in its


                                                10
                                                                                    11-R-0005


          RATB survey that Recovery Act work was prioritized at the expense of routine
          non-Recovery Act work.

          In EPA’s Stewardship Plan Quarterly Status Report, dated June 4, 2010, OGD
          identified baseline monitoring reviews for Recovery Act grants that were
          considered overdue as of April 29, 2010. According to the report, administrative
          baseline reviews showed the Agency above its target of 90 percent. However, the
          reviews also showed that 24 of 590 Recovery Act administrative baseline reviews
          (4.1 percent) were overdue. This report does not include statistics on non-
          Recovery Act work nor does it identify impacts to non-Recovery Act grants
          resulting from overdue baseline monitoring reports.

OAM Did Not Use Workforce Analysis to Establish Staffing Levels

          OAM distributed Recovery Act resources to the regional offices it believed would
          be most impacted by the Recovery Act. However, this distribution was not based
          on a workforce analysis, which would have identified regions and divisions that
          were over- or understaffed. For example, OAM did not perform an analysis of
          each region and division to determine whether contract offices were short staffed
          prior to the Recovery Act and the subsequent implications that Recovery Act
          would have on their workloads. Because EPA was using existing contracts for the
          Recovery Act, Region 8, which was taking the lead for contract resource
          distribution, believed most of the additional activities would be related to
          monitoring and reporting requirements of the Recovery Act. Regions that were
          already understaffed would have more difficulty handling both Recovery and non-
          Recovery Act work.

          OAM’s workforce analysis, prepared in FY 2007 in response to a prior OIG audit
          report, was not Agency-wide in scope and did not specifically identify the
          organization’s skill gaps. The analysis simply allocated the workload at the time to
          the existing workforce. Further, when managers met to discuss the analysis, they
          could not agree on the staff allocations. Therefore, OAM took no further actions to
          implement the workload model. When the Recovery Act was passed, the lack of a
          workforce analysis placed OAM at a disadvantage, since it did not have statistical
          information on the number of staff needed to effectively carry out the contracting
          activity. Without a detailed analysis of the workforce/workload ratio, it is difficult
          to assess the overall impact that additional work created by the Recovery Act is
          having or whether there is sufficient staff to handle the additional work.

          In response to an OMB 2009 request on acquisition workforce planning, EPA
          submitted its Acquisition Human Capital Plan, dated April 1, 2010, which
          identified strategies and goals for increasing the capacity and capability of the
          workforce. The plan specifically provided an overall view of staffing and staff
          capabilities for OAM as a whole. OAM used data from a formal competency
          survey conducted in 2007 and updated its information via an informal poll of
          current mid-level managers to determine contract workers’ strengths and areas for


                                           11
                                                                                                  11-R-0005


                improvement. Using the updated survey information, OAM determined the
                highest-ranked and lowest-ranked competencies of its contracting workforce and
                will consider the results to develop training plans for 2011. This strategy in part
                follows the Office of Personnel Management’s workforce planning model for
                identifying skill gaps, particularly for determining the current workforce resources
                and how they will evolve over time through turnover and other means, and
                determining existing gaps between the current and projected workforce needs.

                 The plan identifies an overall summary of projected workforce needed for future
                 contracting activities within EPA. The plan does not identify which regions,
                 divisions, or laboratories need additional contracting staff. While the plan
                 identified a 27 FTE gap in the contracting workforce, it did not identify whether
                 contracting specialists or contracting officers were needed. The Office of
                 Personnel Management’s workforce planning guide suggests developing
                 specifications for the numbers, skill levels, and location of workers and managers
                 needed to accomplish the Agency’s strategic requirements. Without the additional
                 details, EPA cannot determine staffing shortfalls or skill gaps at the local level.

Grant Resource Allocation Not Based on Workload Study

                While OGD had a study on workload, the final decision on allocation of resources
                for the Recovery Act was not based on the study. 4 In anticipation of the
                Recovery Act’s passage, the Agency established workgroups consisting of
                regional and program representatives to prepare program requests for funds
                through FY 2012, which was the timeframe in the early drafts of the Recovery
                Act legislation. For its initial assessment of resources needed for the Recovery
                Act, EPA estimated its workload using factors provided by program and regional
                offices. Each of the offices had the opportunity to justify its request for
                management and oversight funds. However, in the final legislation, the Recovery
                Act was only funded through FY 2011. Because the timeframe for use of the
                funds was reduced and the program requests exceeded the amount of funds
                provided in the law, OCFO revised program and regional allocation requests to, in
                their view, best distribute the available resources. After receiving feedback from
                the offices, OCFO made the final allocation adjustments of the management and
                oversight funds.

Potential Diminished Efforts in Monitoring and Oversight Reviews
                Increasing employee workloads to focus on Recovery Act work reduces time
                spent on other important activities, such as monitoring and oversight of non-
                Recovery Act related work. Contract officers and grant specialists are concerned
                that they will be giving less attention to postaward monitoring and oversight for


4
 Management of Assistance Agreements at the Environmental Protection Agency, April 2005 (commonly referred to
as the LMI study).


                                                     12
                                                                                       11-R-0005


         non-Recovery Act work. Diminished monitoring and oversight of contract and
         grant vehicles leaves the Agency susceptible to errors.
         When management and oversight funds expire in 2011, the Agency will have to
         perform monitoring and oversight of Recovery and non-Recovery grants and
         contracts with base program resources. According to a February 2, 2009,
         Congressional Budget Office cost estimate, money historically appropriated to
         State Revolving Funds is spent slowly, with about half being spent after the first
         3 years. As of August 2010, EPA disbursed about 42.4 percent of the Clean
         Water State Revolving Fund Recovery Act money and 47.2 percent of Drinking
         Water State Revolving Fund Recovery Act money. Because Recovery Act grants
         and contracts may not be completed in 2011, the Agency will be required to
         reevaluate resource needs and plan for future contingencies.

Recommendation
         We recommend that the Assistant Administrator for Administration and
         Resources Management:

         2-1       Direct OAM and OGD to establish procedures to review the metrics for
                   Recovery Act and non-Recovery Act contract and grant activities with
                   senior managers for the period ending September 30, 2010, and quarterly
                   thereafter. For any metrics that do not meet performance goals, senior
                   managers should examine the reasons the goals were not met, and where a
                   control weakness is revealed, develop a plan with corrective actions, due
                   dates, and responsible offices to ensure that the goals are met in the future.
                   If goals are not attained due to resource limitations, OAM and OGD
                   should work with OCFO to reexamine the distribution of Recovery Act
                   management resources.

Agency Comments and OIG Evaluation
         Our draft report contained two recommendations for this chapter. The
         recommendations were:

                  Develop action plans to address the delays that already have been
                   identified, such as completion of grant closeouts and administrative
                   monitoring reviews for Recovery Act grants.

                  Direct OAM and OGD to regularly review, with senior managers,
                   performance information such as performance measures, FMFIA reports,
                   contract office quality assurance plans, and stewardship plan updates, to
                   detect delays in Recovery Act and non-Recovery Act grant and contract
                   management activities and develop appropriate written action plans.
                   Written action plans should be developed when performance measures
                   will not be met or when delays indicate that a weakness in internal



                                             13
                                                                          11-R-0005


       controls may exist. Existing workforce information should be used to
       develop the action plans.

The Agency did not agree that it should develop action plans to address current
delays. OAM responded that action plans for contract-related delays are
unnecessary at this time because there are no specific actions that have not been
awarded or unduly delayed. While OGD acknowledges that delays have occurred
in non-Recovery Act activities, it does not believe these impacts warrant
development of an action plan at this time. OGD provided baseline monitoring
data through August 31, indicating that its administrative baseline and
programmatic baseline reviews are at 85.3 percent and 77.1 percent, respectively,
for non-Recovery Act awards. OGD believes that both the administrative and
programmatic baseline reviews will approach the 90 percent goal by year end.
Both OAM and OGD contend that action plans should not be developed until an
issue becomes an internal weakness. Both did agree to review performance
information on a regular basis and develop written action plans, using available
workforce information, where the review identifies an internal control weakness.
OAM and OGD agreed to meet with senior resource officials and the OCFO in
the first quarter of FY 2011 to determine whether the Agency has the proper
strategy in place for managing the Recovery Act and non-Recovery Act
procurement and assistance workload. OAM and OGD would brief the OIG on
the results.

The OIG’s recommendations in the draft report were intended to be proactive in
nature in an attempt to address potential issues and problems before the issues rise
to the level of an internal control weakness. The OIG believes that waiting until
an issue becomes an internal control weakness is too late, and that by being
proactive, the Agency can prevent some internal control weaknesses from
occurring. We still believe that the indicators we reported and those contained in
the response to the draft report show that EPA contracts and grants may have
future workload issues and that these issues should be addressed prior to
becoming an internal control weakness.

Many of the functions in which delays are occurring are critical functions.
For example, programmatic baseline monitoring reviews provide important
information, such as whether expended and remaining funds are reasonable,
whether all programmatic terms and conditions are being met, and whether
project milestones are being met. Based on EPA’s response, we combined the
previous two recommendations into one, and the new recommendation requests
that EPA use the September 30, 2010, performance data to determine whether the
Agency should take additional actions. At the exit conference, the Director,
Office of Grants and Debarment, stated that if we allowed flexibility for the
Agency to determine what delays would reveal a control weakness, he would
agree with the recommendation. In responding to the final report, the Office of
Administration and Resources Management should provide a corrective actions
plan for implementing the revised recommendation.



                                 14
                                                                                  11-R-0005




                              Chapter 3
   OAM Needs Agency-Wide Performance Measures
         OAM does not have Agency-wide performance measures, thereby making it
         difficult to assess the impact of the Recovery Act on its staff and workload. The
         Government Performance and Results Act of 1993 (GPRA) (P.L. 103-62) requires
         the Federal Government to establish performance measures. In response to a
         prior OIG audit recommendation, OAM developed performance measures for
         employee job standards that tied in to its strategic goals. However, OAM did not
         develop Agency-wide performance measures for contract functions. Without
         performance measures, OAM does not have valuable information it could use to
         effectively and efficiently manage its workforce and workload, and quickly
         address emerging issues such as impacts from Recovery Act work.

Performance Measurement Is Required by Law
         The Government Performance and Results Act of 1993 provides criteria for
         management’s obligation to maintain performance measurement data. The law
         requires an annual performance plan that is to include:

               Performance goals to define the level of performance to be achieved.
               Goals expressed in an objective, quantifiable, and measurable form.
               A description of the operational processes, skills, and technology, and the
                human capital, information, or other resources required to meet the
                performance goals.
               Performance indicators to be used in measuring or assessing the relevant
                outputs, service levels, and outcomes of each program activity.
               A basis for comparing actual program results with the established
                performance goals.
               A description of the means to be used to verify and validate measures.

OAM Does Not Have Performance Measures
         OAM does not have Agency-wide performance measures to assess relevant
         changes in outputs, service levels, and outcomes of contracting activity. Some
         regional and procurement offices do track contract closeout activity. OAM does
         collect some Agency-wide information on activities that could be used to develop
         performance measures. For example, according to OAM’s FY 2009 activity
         report, it processed 8,130 contract awards, modifications, delivery orders, and
         task orders, including 162 Recovery Act actions. In response to the RATB
         survey, OAM stated that it had 121 contracting officers; that number would
         equate to about 67 contracting actions per contracting officer. While each



                                         15
                                                                                   11-R-0005


          contracting action may require different levels of resources, OAM could use the
          information to identify trends in processing contracting actions that may need to
          be investigated further.

          Without consistent performance measures, OAM cannot determine the impact that
          Recovery Act activities have had on contract work Agency-wide or whether
          required contract tasks are completed efficiently and effectively. Unlike OGD,
          which has established annual performance measures and goals such as number of
          grant closeouts and average time to award grants and amendments, OAM does not
          track such performance measures Agency-wide. These performance measures
          assist OGD in better assessing the impact that Recovery Act work has on the
          overall grant workload.

Past Implementation of Performance Measures Not Effective
          OAM developed performance measures in response to OIG Report No.
          2005-P-00006, Office of Acquisition Management Can Strengthen Its
          Organizational System, issued February 17, 2005. This report made
          recommendations to OAM to develop an action plan with milestone dates for
          establishing performance measures and a means of measuring progress against its
          strategic goals. In response to this recommendation, OAM developed OAM-wide
          performance measures for employee job standards. These measures included
          providing courteous customer service, leading change, and optimizing business
          practices.

          The measures OAM developed in response to the prior report cannot be used to
          measure outputs, service levels, or outcomes of contracting activities, and cannot
          be used as a basis for comparing results with performance goals. Tracking
          progress against organization-wide measures can be helpful in determining how
          processes can be more efficient. For example, comparing fiscal year activity from
          1 year to the next could indicate which regions or procurement offices may be
          having difficulty completing certain tasks and provide a basis for asking why
          actions are not completed. Tracking progress could also indicate which regions or
          procurement offices are performing well. The region or procurement office may
          have its own internal best practices that may be useful to the organization as a
          whole.

Recommendation
          We recommend that the Assistant Administrator for Administration and
          Resources Management:

          3-1    Direct OAM to develop and implement organization-wide performance
                 measures to better manage its activities.




                                          16
                                                                             11-R-0005


Agency Comments and OIG Evaluation

         EPA agreed with our recommendation and will implement the recommendation
         through a Balanced Scorecard Management Plan and a Balanced Scorecard
         Performance Measurement System that will track progress in implementing the
         plan. EPA intends to have the plan in place by March 2011 and the system in
         place by September 30, 2011.




                                       17
                                                                                                                                          11-R-0005



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
    No.      No.                         Subject                          Status1         Action Official             Date      Amount      Amount

    2-1       13    Direct OAM and OGD to establish procedures to           U        Assistant Administrator for
                    review the metrics for Recovery Act and non-                        Administration and
                    Recovery Act contract and grant activities with                   Resources Management
                    senior managers for the period ending September
                    30, 2010, and quarterly thereafter. For any metrics
                    that do not meet performance goals, senior
                    managers should examine the reasons the goals
                    were not met, and where a control weakness is
                    revealed, develop a plan with corrective actions,
                    due dates, and responsible offices to ensure that
                    the goals are met in the future. If goals are not
                    attained due to resource limitations, OAM and
                    OGD should work with OCFO to reexamine the
                    distribution of Recovery Act management
                    resources.

    3-1       16    Direct OAM to develop and implement                     O        Assistant Administrator for   9/30/2011
                    organization-wide performance measures to better                    Administration and
                    manage its activities.                                            Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                18
                                                                                        11-R-0005


                                                                                    Appendix A

                   Agency Response to Draft Report


                                       September 13, 2010

MEMORANDUM

SUBJECT:       Draft Office of Inspector General (OIG) Audit Report:
               EPA’s Contracts and Grants Workforce
               May Face Future Workload Issues
               (Project No. OA-FY09-0924, August 12, 2010)

FROM:          Craig E. Hooks
               Assistant Administrator

TO:            Melissa M. Heist
               Assistant Inspector General for Audit

       Thank you for the opportunity to comment on the subject draft audit report (report).

        I am pleased that the report recognizes the Agency’s noteworthy achievements in
implementing the Recovery Act. As described in the report, these include the award of over $6
billion in grants and $300 million in contracts and the development of a stewardship plan that
fully incorporates Government Accountability Office internal control standards. These
achievements are a tribute to EPA’s acquisition and grants workforce, which did an exceptional
job of workload management and prioritization in the face of the extremely challenging
objectives, expectations and new administrative and reporting requirements resulting from the
Recovery Act.

        The report examines EPA’s contracts and grants staffing for both Recovery Act and non-
Recovery Act activities and finds that current staffing levels may be insufficient to meet present
and future workload demands. It also finds that the Office of Acquisition Management (OAM)
has not developed Agency-wide performance measures for contract functions. To address these
findings, the OIG recommends that I direct OAM and the Office of Grants and Debarment
(OGD) to take certain actions. My response to the recommendations is as follows.




                                                19
                                                                                       11-R-0005


Chapter 2 Recommendations

Recommendation 2-1: Develop action plans to address the delays that already have been
identified, such as the completion of grant closeouts and administrative monitoring reviews for
Recovery Act grants.

Response: In coordination with the OA Division Directors and the Regional Contracting Officer
(RCO) Supervisors, OAM has determined that action plans for contract-related delays are
unnecessary at this time as there are no specific actions that have not been awarded or that have
been unduly delayed as a result of prioritizing Recovery Act work. However, if we determine,
based on new information, that such delays have occurred or may potentially occur, OAM will
coordinate with the OAM Division Directors and RCO Supervisors and develop action plans as
appropriate.

In the grants areas, as demonstrated by information from OGD’s performance measure reports,
the Recovery Act workload has delayed non-Recovery Act activities. As described below,
however, none of these impacts warrants development of an action plan at this time.

Advanced Programmatic Monitoring

To ensure adequate advance programmatic monitoring for Recovery Act awards, OGD
temporarily reduced the required level of advance programmatic monitoring for Regional and
Office of Air and Radiation non-Recovery Act awards from 10% of active recipients to 7% of
active recipients. OGD has not identified any significant adverse effects from this reduction. At
the 7% level, the Agency is still obtaining the information needed to identify grants management
risk areas.

Advanced Administrative Monitoring

The Agency primarily performs advanced administrative monitoring via contract. As of July 28,
2010, we have completed 56 of the 60 Recovery Act contract reviews and will finish the
remaining 4 reviews by the end of the fiscal year. Making Recovery Act advanced
administrative monitoring a priority has slowed the pace of our non-Recovery Act advanced
administrative monitoring reviews. As of July 28, 2010, we have completed only 3% of these
reviews, but are on track to complete the remaining 97% by the end of the calendar year as
required by EPA Order 5700.6A2 CHG2, Policy on Compliance, Review and Monitoring.

Baseline Monitoring

In 2010, OGD implemented a new post-award Baseline Monitoring tool that tracks real-time
compliance with baseline monitoring requirements. As of August 31, 2010, the following chart
measures Agency progress in meeting a Grants Management Plan (GMP) compliance target of
90%.




                                               20
                                                                                         11-R-0005




                       All Awards      ARRA Awards Only         Non-ARRA Awards
Administrative             86%              91.3%                    85.3%
Baseline
Programmatic               77%                 75%                     77.1%
Baseline

The data show that, to date, administrative baseline monitoring exceeds the 90% target for
Recovery Act awards and is near the target for non-Recovery Act awards. While the comparable
numbers for programmatic baseline monitoring are not as high, we expect that the level of
monitoring will approach 90% by the end of the calendar year.

Grants Management Plan Disinvestments

The Recovery Act workload did lead to the deferral of certain activities under the Agency’s
GMP. This has principally involved moving scheduled completion dates for selected milestones
into FY 2011 under the GMP Goals 1-3. Activities affected include enhancements to guidance
on environmental results and roles and responsibilities as well as the development of a new
grants policy vision. OGD believes that the existing controls in these areas (e.g., the
Environmental Results order, the Roles and Responsibilities Matrix, and relying on the Grants
Customer Relations Council as a key mechanism for policy feedback) have been sufficient to
mitigate any adverse effects of the deferral.

Closeouts

Although the report suggests that grants closeouts could become a problem, existing data show
that as of August 31, 2010, EPA was at the 86.7% and 99.3% levels towards achieving the 90%-
99% GMP closeout goals. These percentages are on par with the August 31 numbers for 2009
(86.7% and 99.4) and 2008 (86.8% and 99.3). As is typically the case, OGD expects there will
be significant closeout activity through the remainder of the fiscal year to allow EPA to meet,
from an overall Agency standpoint, the 90%-99% goals.

In short, the delays in non-Recovery Act grant work caused by the Recovery Act workload do
not rise to the level of a material or agency weakness requiring preparation of an action plan at
this time. The internal controls in the GMP are currently sufficient to address the risks posed by
the delays, and OGD anticipates that the Agency will return to pre-Recovery Act performance
levels in FY 2011. At the same time, and as described more fully in the response to
Recommendation 2-2, OGD will continue to monitor the situation through its performance
measurement reports and, if circumstances change, take appropriated corrective action.

Recommendation 2-2: Direct OAM and OGD to regularly review with senior managers
performance information such as performance measures, FMFIA reports, contract office quality
assurance plans, and stewardship plan updates, to detect delays in Recovery Act and non-
Recovery Act grant and contract management activities and develop appropriate written action
plans. Written action plans should be developed when performance measures will not be met or
when delays indicate that a weakness in internal controls may exist. Existing workforce



                                                21
                                                                                       11-R-0005


information should be used to develop the action plans.

Response: I agree with the recommendation to review performance information on a regular
basis and develop written action plans, using available workforce information, where the review
identifies an internal control weakness. Consistent with this recommendation, OAM and OGD
will be meeting with Senior Resource Officials and the Office of the Chief Financial Officer in
the first quarter of FY 2011 to determine whether the Agency has the proper strategy in place for
managing the Recovery Act and non-Recovery Act procurement and assistance workload. OAM
and OGD will brief you on the results of the meeting.

I disagree, however, with the recommendation to prepare written action plans whenever a
performance measure is not met. Instead, similar to the case for delays in Recovery Act and
non-Recovery Act activities, written action plans for performance measure shortfalls should be
required only where a shortfall reveals an internal control weakness. The OIG’s formulation
would limit OAM’s and OGD’s discretion to strike an appropriated balance between recovery
Act and non-Recovery Act activities by mandating action plans for deviations from performance
measures that are de minimus or otherwise not material. I am therefore requesting that the OIG
modify Recommendation 2-2 to apply the internal weakness standard to both contract/grant
delays and performance measure shortfalls.

Chapter 3 Recommendation

Recommendation 3-1: Direct OAM to develop and implement organization-wide performance
measures to better manage its activities.

Response: I agree with this recommendation and OAM will address it through a Balanced
Scorecard. This will consist of two components - a Balance Scorecard Management Plan (Plan),
and a Balanced Scorecard Performance Measurement and Management System (System) that
will track progress in implementing the Plan. The Balanced Scorecard will establish a
comprehensive framework for performance management of the Agency’s acquisition programs,
incorporating objectives, core measures and targets that focus on meeting EPA, OARM and
OAM strategic goals. It will also allow OARM to identify opportunities to strengthen EPA’s
Acquisition Workforce Strategic Human Capital Plan, thereby ensuring that the Agency has the
best qualified acquisition staff to support its mission.

I am confident that the Balance Scorecard will enable EPA to achieve consistency, uniformity,
and continuous improvement in its acquisition programs. OAM anticipates having the Plan in
place by the end of March 2011 and the System in place by the end of September 2011.

Thank you again for the opportunity to comment on the report. If you have any questions, please
contact me, John Bashista, Director, OAM, at (202) 564-4310, or Howard Corcoran, Director,
OGD, at (202) 564-1903.

cc:    Nanci Gelb
       Renee Wynn
       Jerry Kurtzweg



                                               22
                                           11-R-0005


Sheila Frace
Maryann Froehlich
David Bloom
Stefan Silzer
Janet Kasper
Deputy Regional Administrators
Assistant Regional Administrators
John Bashista
Chuck Gherardini
Lisa Mass
Joan Wooley
John Oliver
OAM Division Directors
Regional Contracting Officer Supervisors
Denise Simons
Catherine Vass
Francis Roth
Don Flattery
Marian Cooper
Grants Management Officers
Junior Resource Officials
Howard Corcoran




                                      23
                                                                                  11-R-0005


                                                                               Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Office of Grants and Debarment, Office of Administration and
       Resources Management
Director, Grants and Interagency Agreements Management Division, Office of
       Administration and Resources Management
Director, Office of Regional Operations
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Acquisition Management, Office of Administration and
       Resources Management
Audit Follow-up Coordinator, Office of Grants and Debarment, Office of Administration and
       Resources Management
Inspector General




                                             24
